                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A06040015
                                                                                  11           Page 1 of 1



                  The university1 informed NSF OIG that it had received an allegation against the subject2
          alleging fabrication and falsification of data, within four manuscripts, three of which were
          published. The research was partially funded by NSF.~The University conducted an inquiry into
          the allegations and concluded there was sufficient evidence to warrant an investigation.

                 The Investigation Committee concluded, based on a preponderance of evidence, that the
          Subject intentionally fabricated and falsified data, actions deemed a significant departure from
          accepted practices. The Investigation Committee recommended that 1) the University make a
          finding of scientific misconduct; 2) the Subject be dismissed as a student; 3) the Subject's
          master's degree be revoked; 4) the publications containing the fabricated and falsified data be
          removed from co-authors' websites and replaced with a message explaining the retraction; 5) the
          co-authors pursue retraction of the publications fiom the publishers; and 6) the University
          educate students about scientific misconduct. The College Dean, the Faculty Appeal Board, and
          the University President concurred with the recommendations. The Subject was dismissed fiom
          the University; the Subject's master's degree was revoked; and action was initiated to retract the
          affected publications.

                  OIG concurred with the University assessment, and recommended: 1) making a finding of
          research misconduct.; 2) sending the Subject a letter of reprimand; 3) debarring the Subject from
          receiving Federal funds or participating in any federally-funded project for a period of 3 years; 4)
          requiring certifications for a period of 3 years following debarment period; 5) requiring
          assurances for a period of 3 years following debarment period; and 6)bar the Subject fiom
          serving as a reviewer of NSF proposals for 3 years. The Deputy Director accepted our
          recommended actions, adding that the Subject is required to complete an ethics training course.

                This memo and the attached Report of Investigation constitute the case closeout.
          Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
    National Science Foundation
      Office of Inspector General




                     Confidential
                 Investigation Report
               C,aseNumber A06040015




This Confidential Investigation Report is the property of the NSF OIG and may be disclosed outside
   NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.C. $$552,552a.

                                                                                 NSF OIG Form 22b (1 1/06)
                                     Executive Summarv
Allegation:     Fabrication and falsification of data within four manuscripts, three of which were
                published, containing research partially funded by NSF.
University
Inquiry:        The University conducted an inquiry into the allegations and concluded there was
                sufficient evidence to warrant an investigation.
University
Investigation
and Action:     Investigation Committee concluded, based on a preponderance of evidence, that
                the Subject intentionally fabricated and falsified data, actions deemed a significant
                departure fiom accepted practices.
                Investigation Committee recommended 1) University find scientific misconduct;
                2) the Subject be dismissed as a student; 3) the Subject's master's degree be
                revoked; 4) the publications containing the fabricated and falsified data be
                removed fiom co-authors' websites and replaced with a message explaining the
                retraction; 5) the co-authors pursue retraction of the publications from the
                publishers; and 6) the University educate students about scientific misconduct.
                The College Dean, the Faculty Appeal Board, and the University President
                concurred with the recommendations. The Subject was dismissed from the
                University on December 18,2006; the Subject's master's degree was revoked on
                January 18,2007; and action was initiated to retract the affected publications.
OIG
Assessment:     OIG concurs with the University assessment.
                         The Act: Subject fabricated and falsified data in four manuscripts.
                         Intent: The Subject acted intentionally.
                         Standard of Proof: A preponderance of evidence supports the
                         conclusion that the Subject fabricated and falsified data.
                         Significant Departure: The Subject's fabrication and falsification
                         represent a significant departure from accepted practices.
                         Pattern: The Subject fabricated and falsified data in four manuscripts,
                         establishing pattern.
OIG Recommends:
                           Make a finding of research misconduct.
                           Send the Subject a letter of reprimand.
                           Debar the Subject from receiving Federal funds or participating in any
                           federally-funded project for a period of 3 years.
                           Require certifications for a period of 3 years following debarment
                           period.
                           Require assurances for a period of 3 years following debarment period.
                           Bar the Subject fiom serving as a reviewer of NSF proposals for 3
                           years.
                                         Universitv's Inquirv

        In a letter dated April 12,2006,' the ~niversit? informed NSF OIG about "an allegation of
scientific misconduct3 for falsification of data and experimental results published in the scientific
literat~re."~ The alleged fabrication involved research partially funded by NSF.' Based on the
inquiry, the University concluded that the alleged scientific misconduct was of sufficient seriousness
to warrant an i n ~ e s t i ~ a t i o n . ~

        The University received the allegation of scientific misconduct on March 8,2006. The
subject7 allegedly reported falsified data and experimental results in four manuscripts, three of
which were published.
                                       raised the allegation of scientific misconduct. They did so after
being informed by a student that the Subject admitted "to falsifying data in one of the
publications."'2                        asked the Subject whether he had falsified material in the
publications, and they "reported that [the Subject] had subsequently informed them that he had
falsified data in each of the publications."13

        The University took necessary action to secure all electronic files and notebooks. In addition,
they instructed the subject14that




"Tab C1, pg 2.
l 3 Tab C1,pg 2.
l4 Tab C2a.
           A written statement is required from you that identifies the source of the data
           in the manuscripts, conference proceedings, and related presentations, and
           responds to the above identified concerns . . . The statement should also
           specifically describe the data for which you are responsible and identify the
           source documents for the original data or other material.15

The Subject was further asked 1) to confirm that he had acknowledged to others having falsified data
in the manuscripts and conference proceedings, 2) to include a description of the falsified data, and
3) to provide an explanation for his actions. Lastly, he was asked to relate any other instances of
reporting falsified data.

         In his handwritten response,16the Subject wrote "I accept that I have fabricated data and
results in all of the four papers."17 He explained that the fabrication was due to "a combination of
lack of motivation, laziness and a lack of interest in the work (especially experiments) I was
supposed to

        The Subject wrote that he continued the acts of misconduct in subsequent papers that were
based on the first paper's data and results. He wrote that "since I had gotten away with fabrication in
my first paper, I took this route in my second paper,"1g adding "I also never gave a hint to my
advisor that I was lagging behind or that I had lost interest in my research work, and I was also afraid
that they might come to know of my misconduct^."^^

        In regard to the third paper,21the Subject wrote, "I took the easier route and in this paper I
reported that the algorithms were working. Also, I didn't test much on the second dataset and
fabricated the results."22

        For the fourth          the Subject wrote that although he did do more implementations than
in the previous three papers, "the main problem was that I wasn't on schedule and as the deadline
approached I fabricated the results. Most of the algorithms that were reported in the paper have been
implemented (but not exactly as described in the paper). However, I did not manage to get the best
results out of them and hence fabricated them."24




     Tab C2a, pg 2.
l6   Tab C3.
         The subject concluded his'response by writing:

                    In summary, in all the four papers, I did fabricate the results. But, the
                    actual extent reduced with time. I am ashamed by my behavior and I'd
                    like to apologize to my advisors for constantly lying to them and
                    keeping them in dark for such a long period of time. I'm still trying to
                    muster up courage to tell them the exact

        Based on the Subject's written statement and the lack of evidence contradicting the Subject's
assertions, the University determined the "allegations are of sufficient seriousness to warrant an
investigation." 26

                                           Universitv Investigation

       NSF OIG received the Ad Hoc Scholarly Misconduct Committee's Investigation Report
(Report) and attachments, the Subject's response to the Report, and a letter from the Dean referring
the matter to the Faculty Appeal ~ o a r d . ~ ~

        According to the Report, the Committee was instructed to investigate the allegations that the
Subject falsified data and experimental results in the four manuscripts. The Committee was also
asked to investigate whether the Subject's Master's Qualifying Examination, which was based on the
data in question, contained fabricated andlor falsified data.28

        The Committee interviewed Co-Author A and asked him to discuss the allegation and his
relationship and interactions with the Subject. Co-Author A said he was the Subject's primary
advisor and that the papers were based on projects within the Subject's main-line of research,
although not part of Co-Author A's main areas of research. He stated that the Subject's work never
appeared suspicious during meetings held with the Subject. Co-Author A added that "he did not
believe there was any pressure on [the Subject] to stay in the area of machine learning." The
Committee determined that Co-Author A had been unaware of the fabrication and falsification,
adding that the Subject was clever in his misconduct so as to make detection diffi~ult.~'

        The Committee also interviewed Co-Author B who stated he had been unaware of the
fabrication and falsification. He said that weekly meetings among the Subject, Co-Author A, and
himself did not include reviews or specific discussion related to the software codes the Subject was
instructed to write for the experimentation and implementation of machine learning models.
However, he explained that reviewing a student's software code is not a normal practice in that
research                 Co-Author B said that the Subject's ability to fabricate plausible results,
including some that indicated the model was not working, gave him no indication that misconduct



25 Tab C3, pg 5.
26 ~ a ~b 1pg, 6.
27 Tab E, 1-13.
28 Tab El, pg 2.
had occurred. He added that the faculty thought the Subject was a strong student in theory research
and that the Subject could have changed his line of research and his advisor at any time.31

       During his interview with the Committee, the Subject verified the written statement he had
submitted during the inquiry, adding that since his Qualifling Exam was based on the same data, the
exam also contained fabricated data. The Subject showed the Committee where he fabricated data.
He told the Committee that he generated numbers based on what he thought would or would not
happen had he run the experiments. He also said he falsified data when his experiments did not
provide the desired results.32 He further told the Committee where the fabricated and falsified data
and the partial code were kept on his computer, printing his file indexes and marking for the
Committee which files contained fabricated and/or falsified data.33

        The Committee concluded "that a preponderance of the evidence shows that [the Subject]
committed scientific misconduct by fabricating and falsifying data, by representing t h s data as
authentic to his colleagues, and by using this fabricated/falsified data in published papers and as part
of the requirements for a Masters degree."34The Committee also found that "a preponderance of
evidence shows that the fabrication and falsification committed by [the Subject] constitutes a
significant departure from the accepted practices of the relevant research community and the
fabrication and falsification was committed intentionally and knowingly and was not merely
careles~ness."~~ The Report stated that these findings were based on the fact that the Subject
admitted his acts of research misconduct, and that the Subject did not produce evidence of the
existence of computer programs that could have produced the results the Subject claims to have
fabri~ated/falsified.~~

         The Committee recommended the following actions:

                    The Subject should be dismissed as a student from the University.
                    The Subject's master's degree li-om the University should be revoked.
                    Co-Authors A and B should be instructed to remove manuscripts containing the
                    fabricated and falsified data from their websites and replace them with a message
                    explaining the retraction.
                    Co-Authors A and B should pursue retraction of the manuscripts li-om the publishers.
                    The University should anonymize the Committee's report and distribute it to students
                    to publicize the consequences of research misconduct, thereby educating the
                    academic community about the need to prevent scientific m i s c o n d ~ c t . ~ ~

        The Subject responded to the ~ e ~ 0 1stating
                                                - t ~ ~that he did not contest any of the findings, but
that he disagreed with the recommendation that the publications be retracted with a statement


31 Tab El, pg4-5.
32 Tab El3 provides the Subject's response and notes regarding specific instances of fabrication and falsification.
33 Tab El, pg 5-7.
34 Tab El, pg 7-8.
35TabEl, pg 8.
36TabEl, pg 8.
37 Tab El, pg 11-12.
38 Tab E2.
reading "[full citation] This paper has been retracted because data in the paper were
fabricatedlfalsified by [Subject]." The Subject claimed such a message would make his offense
public and forever tarnish his reputation. The Subject also said that the timing and dissemination of
the anonymized report would preclude his remaining anonymous to the University's academic
community.

        The ~ e a concurred
                     n ~ ~ with the Committee's findings4' and initiated actions to dismiss the
Subject from the University and to revoke his master's degree, referring the matter to the Faculty
Appeal ~ o a r d as
                 ~ 'described in the University's          The Subject waived his right to a hearing
before the Faculty Appeal ~ o a r d The
                                      . ~ ~Faculty Appeal Board concurred with the Committee's
recommendations regarding dismissal and degree revocation and forwarded its recommendation to
the University resident^^.^' The University President affirmed the Faculty Appeal Board's decision
to dismiss the Subject on December 18,2006, and decided to present the recommendation regarding
revocation of the Subject's master's degree to the Board of ~ e ~ e n tThe
                                                                        s . ~Board
                                                                              ~ of Regents
revoked the Subject's master's degree on January 18,2007.4~


                                               OIG Investi~ation

        To clarify the extent of fabrication and falsification, NSF OIG asked the Subject to provide a
written account of the specific data in the four manuscripts that were fabricated and the specific data
in the four manuscripts that were falsified." The following table is based on the Subject's reply" and
indicates the fabricated and falsified data within each manuscript:




3            9           ,   Dean,. -
40 Tab E3.
4' Tab E3, pg 2.
42 Tab E4.
43 ~ a ~b 1 .
                                 .-
                        President,
45 Tab F2.
46 Tab F3. Dismissal was finalized on January 9,2007 (Tab F4).
47 Tab F5.
48 Tab G1.
49 Tab G2.
The Subject's response thus indicated that the four manuscripts contained extensive fabrication and
falsification.


                                                 OIG's Assessment

       A finding of research misconduct by NSF requires that (1) there be a significant departure
from accepted practices of the relevant research community, that (2) the research misconduct be


50 Page numbers included in the table refer to page numbers the University assigned to the articles during its inquiry.
NSF OIG attached copies of the articles containing the SSIR numbers to the letter to the Subject (Tab Gl). The Subject
committed intentionally, or knowingly, or recklessly, and that (3) the allegation be proved by a
preponderance of the e~idence.~'

                                                The Acts
        The Subject was alleged to have fabricated and falsified data contained in four manuscripts,
three of which were published. During interviews, the Subject admitted that he fabricated and
falsified data and engaged in a scheme to prevent detection by his Co-Authors. The Committee
found "that a preponderance of the evidence shows that [the Subject] committed scientific
misconduct by fabricating and falsifying data, by representing this data as authentic to his
colleagues, and by using this fabricatedlfalsified data in published papers and as part of the
requirements for a Masters degree."56 The Committee also found that the Subject's actions constitute
a significant departure from the accepted practices of the relevant research

       We concur with the Committee that the subject fabricated and falsified data and that his
actions are a significant departure fiom accepted practices.

                                                Intent
          The Committee found the Subject's acted intentionally. The Committee wrote:

                     In our combined tenure we have never before seen this level of
                     intentional, knowing, long term fabrication of results. Admittedly, the
                     first paper falsification was intentional - but,'later, he was trying to
                     cover up for his earlier fabrication. The Respondent was caught up in
                     a web he didn't know how to escape fiom because his later work built
                     on earlier work, and he hadn't produced the code for the earlier work
                     and could never catch up.

                   The Respondent's consistent admissions as well as his recognition that
                   he could not extract himself from the self-created web of fabrication
                   and falsification shows by a preponderance of evidence that he acted
                   intentionally and knowingly. While he may have felt compelled to
                   continue his fabrications to hide earlier misconduct, that fact does not
                   change the conclusion that he acted intentionally and knowingly.58

        The Subject's intent is demonstrated in the extent of fabrication and falsification of data as
well as the manner by which he concealed the fabrication and falsification fiom Co-Authors A and
B. The Subject decided for reasons he described as "a combination of lack of motivation, laziness
and a lack of interest in the work (especially experiments)" to go the "easier route" and fabricate and
falsify his data, rather than inform his co-authors that he was behnd and not interested in his work.59

          We concur with the Committee that the subject's actions were intentional.


55   45 C.F.R. $689.2(c).
56 Tab El, pg 7-8.
57 Tab,El,pg  8.
58 Tab El, pg 9.
59 Tab C3, pg 1.
                                          Standard o f Proof
        The Committee found by a preponderance of evidence that fabrication and falsification of
data by the Subject occurred. Its finding was based on the Subject's own admission of guilt and
inability to produce evidence of having written computer code.

      We concur with the Committee that the Subject's actions and intent were proven based on a
preponderance of evidence.

        We conclude that the subject was found, by a preponderance of evidence, to have
intentionally fabricated and falsified data, thereby committing an act of research m i s c o n d ~ c t . ~ ~


                                   OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

         (1) How serious the misconduct was; (2) The degree to which the misconduct
         was knowing, intentional, or reckless; (3) Whether it was an isolated event or
         part of a pattern; (4) Whether it had a significant impact on the research
         record, research subjects, other researchers, institutions or the public welfare;
         and (5) Other relevant circ~rnstances.~~


                                                Seriousness

        The Subject's actions are an egregious violation of the standards of scholarship, and of the
fundamental tenets of research ethics. The Subject's intentional fabrication and falsification of data
continued until the allegation was raised. In its investigation report, the Committee wrote "In our
combined tenure we have never before seen this level of intentional, knowing, long term fabrication
of results." 62

       Adding to the seriousness of the Subject's actions is the fact that three of the four
publications containing fabricated and falsified data were published within scholarly journals and
thus became part of the research record. Even iflwhen the documents are retracted, the data has
already been disseminated within the research community. The Subject's actions therefore adversely
affected the research community.

         Lastly, the Subject's actions affected not only the Subject, but also could serve to affect the
research and integrity of Co-Authors A and B, who were unaware of the fabrication and falsification
in articles bearing their names and must now pursue retraction of the articles.



60 45 C.F.R. part 689.
   45 C.F.R. $ 689.3(b).
62 Tab E1,pg 9.
                                             Degree o fIntent

        We found no evidence to mitigate our conclusion that the Subject intentionally fabricated and
falsified data. All of his actions, and his admissions after the misconduct was discovered indicate
that he decided to fabricate and falsify his data to deceive his mentors, colleagues, and the research
community, and then repeated those actions to cover his lies. Prior to the allegation, the Subject
made no efforts to remediate his initial misconduct.

        Specifically, the Subject's actions were an intentional violation of several tenets of the
research community. First, as a student, he violated basic expectations of academic behavior.
Universities reasonably expect their graduate students to honestly perform the research they propose
as a part of their graduate studies. The University's code of student conduct clearly states:

           (2) Admission to the University carries with it the presumption that students
           will conduct themselves as responsible members of the academic community.
           As a condition of enrollment, all students assume responsibility to observe
           standards of conduct that will contribute to the pursuit of academic goals and
           to the welfare of the academic community. That responsibility includes, but is
           not limited to:

           (a) Practicing high standards of academic and professional honesty and
           integrity; 63

However, the Subject, almost from the inception of his research studies, began fabricating and
falsifjlng data to suggest his research was progressing when in actuality it was not. His dishonesty
is an affiont to both the academic community and to the basic expectations of professional honesty
and integrity at his own University.

        Second, the Subject intentionally violated the honesty expected within the student-mentor
relationship. The relationship between students and their mentors is a special, trusted relationship
within the research community. The Subject violated the trust of his two mentors by lying to them
and providing them with false information regarding the progress of the research, rather than
forthrightly discussing h s problems with them.

        Third, the Subject intentionally included fabricated data in four co-authored manuscripts,
three of which were published in scholarly journals and will now need to be retracted. Scholarly
journals reasonably expect that submissions for publication will represent work accomplished under
the highest ethical standards. In addition, these manuscripts were co-authored with his mentors
whose own reputations the Subject's actions have also potentially tarnished.

       The Subject's actions occurred over a four-year period of time. His initial intentional lies to
his mentors were repeated by additional fabricated data to disguise his previous lies. His actions
required that he intentionally and repeatedly violate the tenets of ethics and integrity expected of
students, researchers, and publications and he did so, with the full knowledge that his actions were to
avoid the difficulties inherent in conducting new and novel research.

63   Tab E4, pg 2.
                                                 Pattern
       The Subject fabricated and falsified data in four publications and his Master's Qualifying
Exam, all of which were based on one data set and project that were partially funded by NSF.
Although the Subject said he had not fabricated or falsified data in any other published or
unpublished papers, we conclude that fabrication and falsification in four manuscripts and the exam
constitute a clear pattern to the Subject's conduct.

                                       Impact on the research record
          Three of the four publications containing fabricated and falsified data were published within
scholarly 'ournals and became part of the research record. According to various indexes of
citations!   the Subject's first article65was cited by other publications 36 times, the second article66
was cited five times, and the third article67was cited one time.68The results have therefore already
been disseminated and used at least 42 times in the research community.

      The fabricated and falsified work was also referenced in a number of the co-authors
subsequently funded proposals.

                                                  Recommendation

Based on the evidence, OIG recommends that NSF:

                  send a letter of reprimand to the Subject informing him that NSF has made a finding
                  of research m i s c ~ n d u c t ; ~ ~

                  debar the Subject from receiving Federal funds or participating in any federally-
                  funded project for a period of 3 years commencing on the date of NSF's finding of
                  research m i s c o n d ~ c t ; ~ ~

                  require the Subject to certify to the AIGI, Office of Inspector General, that proposals
                  or reports he submits to NSF do not contain plagiarized, falsified, or fabricated
                  material for 3 years after the debarment period;71

                  require that the Subject submit assurances by a responsible official of his employer to
                  AIGI, Office of Inspector General, that any proposals or reports submitted by the


  Indexes used include SCOPUS, Web of Science, and Google
                                                      - Scholar. Results were compared across indexes and
du~licateresults were removed.




contained references to the respective articles.
69 A letter of reprimand is a Group I action (45 C.F.R. $689.3(a)(l)(i)).
70 Debarment of an individual is a Group I11 action (45 C.F.R. §689.3(a)(3)(iii)).
71 Certification by an individual is authorized in 45 C.F.R. $689.3(a).
                   subject to NSF do not contain plagiarized, falsified, or fabricated material for 3 years
                   after the debarment period;72and

                   bar the Subject from serving as a reviewer of NSF pro osals for 3 years commencing
                   on the date of NSFYsfinding of research misconduct.7 P




72
     Requirement for assurances is a Group I action (45 C.F.R. §689.3(a)(l)(iii)).
73   Prohibition ffom serving as a reviewer is a Group 111 action (45 C.F.R. §689.3(a)(3)(ii)).
                         .
                            . .           .. . .   .                   .
                                                                        .
                                                                        ..
                                                                                     \.
                                                                                             .                                   .       .               ..   .     .     .                                                                .
    .                                                                                                                                                                                                                  .           .           .
.           .           . .                                .:
                                                                             .           .
                                      .. . .                                                                                                                                                                                                                     .. ., . .
                                                       .                                     .           .       .
                                                                                                                                                                                                                   .       .                               .

.       .
        d       '                                                                                                    NATIONALSCIENCEFOUNDATION                                                '                                                                   . .
                                         .     .                                                                                                                                                                                                               . . . .. . . .
                                  . . .                                     ..                              4201 WILSON.BOULEVARD- . . . .. .. .i .. .. . . . ... .
                                                                                             . .. .., . .. AR&lNGTON,WRGlNlA.Z2230,                                                                                                                                                   .
                            .. . . .                                                                                                                           . -
                                                                                                                                                                                                                                                       .               .
                                                                                                                                                                                                                                                                                          ..
                                                                                                                                                                                                                                       ,

                                                                                                          . . .        . . .                                                                                                                               '                      .            .
                                                                                                                                                . . . .                                                                                                                          :.       .
                                                                                                                                                                                                                               .   .
                                  . .                                   .
                                                                                 .
                                                                                     .           . ..
                                                                                                     .
                                                                                                                                                                                  .               .                .   .                                                         .    .
                    .        .                                                                                                                                    . . .                                       ..                                                                               .   .
                                                                                                                                                                                                                                                                   .   .         .
                                                                  ..
            .           .                                                                                                                                                                                                                                                  .          .
                                              OFFKT OF THE
                                                                                                                                             .       .                                                    . .
                                             DEPVrY W C T O R                                                                                                                 .           .

                                                                                                 .               .       .   .       .       .       .                                    .               .                . . .

                                                                                                                                                                                      .               .
                                                                                         .                   .       .
                                                                                                                                                 .   .                                                .        .
                                                                                                                                                                                                                                   .               .


                                         VIA FTRST-CLASS MATL AND ELECTRONIC MAIL




                                                           Re: ~ o t ofeProposed ~ e b a ~ e n t . l vNO&
                                                                                                       rd                                                                 of Research Misconduct
                                                            - . Deterininwit



                                                                                                                                                                                                                                                           .   .
                                          Dear Mr.                                                                                                                                                                                             . .
                             . . .
    .                   .
                                          ~s.docum&tedin the attached-investigativereport prepared by NSF's 0ffice.of.hspector                                                                                                                                     .

                                                             frdm 2003 - 2006, you sebed as a co-author on four manusciipts, three
                                  '                                                                                                                                                                                                                                        ' -


                                      .. Genaal ('QIG"),
                                          ofwhich were published in scholarlyjournals. You have admitted to fabricating and . .
                                          fakifying data in each of these manuscripts.

                                          In light of your misconduct, this letter serves as formal notice. that the National Science
                                          Foundation ("NSF)'     is proposing to debar you fiom directly or indirectly obtaining the
                                          benefits of Federal grants for a period of three years. During your periQd of debkent,
                                          you will be precluded fkom receiving Federal financial and non-financial assistance and
                             ,            benefits under non-procurement Federal programs and activities. See 2 CFR Part 180.
                                          Subparts A. B and L In addition, you will be prohibited h r n receiving any Federal
                                          contracts or approved subcontractsunder the Federal Acquisition Regulations ("FAR").
                                          See 2 CFR 180.125. Lastly, during your debarment period, you will bebarred from
                                          having supervisoryresponsibility, primary management, substantive control over, or
                                          critical influence on, a grant, contract, or cooperative agreement with any agency of the
                                          Executive Branch of the Fdderal Government See 2 CFR 180.115.
                    . ..               .
                                                                                    . .         '
                                                                                                    .   .. . . .       .. .    . .
                                                                                                                                              .   .
                                                                                                                                                      .   .

                                                                            .   .                                      .   .
            ..                                                                                          . .        .                 ..   .
                        .    .. ..
        . -               . . :In addition to                  d,eba&&                        gyo& fiohrseNing        NSF
                              . reviewer, advisor, or consuls until
                        .              .'
                                                                                                Furthermore, for threeyears
        .
                                &er the period of debqment expii&,'I
            .
                                                                             n+qui&g you .to certify that iuy proposals or
                            . .wortsthat you submit,to NSEdo.nGon@n plagi,eed, fal&fied, or fabricated .
                               '


        . .. .                                                                                                                                                '
                        ., inaterial. For 'this same period of time, you must submit . a % ~ c ebys a responsible .
                                               '

               . .                                     ,


            . .. . .            officialof your employer that any: such proposals or reports do not contain plagiarized,.
                     .. .. . falsified, or fabricated material. 'Lastly, by July 3 1,          you must c.omplete.an ethics'
                 .. .           training cdurse on data integrity, and,certify.inn
                                                                                 i wrting to the OIG that jlou hive done so.
                                                                                    .     .     .        .
                                                                                                         . .
                                                           ~&.rch Miscondoct and ~ c t i o n other
                                                                                             s     than ~ e b a n n e n t            ,    .
                                   .           .
                                                        Undex NSF's regulations; "nXearc,hmiscondudt" is defined as "fabrioatiok falsification,
                                                       'or             in proposing or performing research funddd by NSF ..." 45 CFR 68?.1(a).
        .           .                                   NSF ddfines "fabrication" as"'making up data or results and recording or reporting           .
                                                        them." 45 CFR 689.l(a)(l): 'Palsification~'is defined as "manipulating redarch             ,

                                                        materials, .equipment, or processes, or changing or.omitting data or r e s w such that the
                .           . 'I'
                    '
                                               I.      'research is not accuiately represented in the r e s k h record." 45.CFR 689.l(a)(2). A
                                                        finding of ~earch'misconductrequires that: .             ..        ,




                                                                   (1) There be a significant departure h m accepted practices of the relevant
                                                                       research cornmunit& and
                                                                  (2) The reskrch miscohduct be committed intentionally, ' ~ ~knbw&ly,
                                                                                                                               r       or
                                                                      reckl&sly, and
                                                                  (3) The allegation be proven by a preponderance of evidence.

                                                           45 CFR 68'9.2(c).

                                                           By your own admission, each of the four m a n 6 p t . s identified in the OIG report
                                                           c o n t a h fabricated andlor falsified data. I therefore conclude that your actions meet the
                                                           applicable definition of "research misconductn set forth in NSF's regulations.

                                                       Pursuant to NSF's regulations, the Foundation must also determine whether to make a
                                                       finding of misconduct based on a preponderance of the evidence. 45 CFR 689.2(c).
                                                       Afterreviewing the Investigative Report, NSF has determined that, based on a
                                                       preponderate of the evidence, your fabricationand -falsificationwas committed
                                                       intentionally and constituted a significantdeparture h m accepted practices of the
                                                       relevant research community. I am, therefor,e, issuing a finding of research misconduct
                                                       against you.
    .                                                                                                                                                             .       .
.                                                        NSFSsrkgulations establish three categories of actbns ( ~ r o ~ ' l , ~a IdIIII)
                                                                                                                                      , that c& be                    '       .
                                                         taken ig responke to a finding of misconduct. 45 CER 689.3(a). Group I actionshciude
                                                         issuing a letter of reptimi+; conditioning-awards.on prior approval of partic.ular
                                                       . activiti.esfiom NSF; requiring that an institution or individual obtain special prior
                                       .           .     approval of particular activities fiom NSF;and requirhg that an'institutional
                                                         representative certify as to the accuracy of reports or certifications:ofcompliance with
                                           .           .
      .    . .>                                                   .    ..      . ...
                                                                                   ,     .     .                              ... ...
             .            . , .,                           particul&iequirements. & CPR 689,3(aj(l).. .&up 11~actiokkdlude a~ardardsuspension
            -.
                                      '                                                                                                                                                '

              .
            .             .                                or restrictions on designated activitim or expenditures; requiring special reviews of . .
      ..          .               .                        requests for fimding; apd requiring c o ~ ~ t ito
                                                                                                           o the
                                                                                                             n research record. 45. CFR689.3(a)(2).
            . .
                                                          .Group 111actions include suspensionor termination of awards; prohibitions on . .
                                                                                                                                                                               '




     . .                                                                                                                                                          ,,   '


                                          .                participation as NSF reviewers, advisors or consultants; and debarment or suspension .                                      ,


           ..     '       . ..                             h m participation in NSF programs., 45 CFR.689.3(a)(3)..
                                                                                                    .   . .
                                                                                                                            .    ..
                                                                                                                                  ,        .   .
                                                                                                                                                  .       .
      . . .                               ..               .                                                                              .   .

             ,
                                                      '   In dgermining the .severityof the (&ction.to impose for research-mi&nduct, 1havC
                              -                   .        cohsid,eredthe s&ousness.of the misconduct; our determinationthat &was int&ntional;.                                        ;.
                                                           the determination that it was four instances ofmisconduct, as opposed to an isolated
                                                           incident; OW attempts to cover up your misconduct; and the impGt ycyr m i ~ n d u chad
                                                                                                                                                t
                                                          'on the research record. 'I have also considered other r'elevant ci~utnstances.
                                                                                                                                      .
                                                                                                                                        45  CFK
      .      .                                             689.3(b).                                                                      .



                                                                                                                              .
                  ..                                      I, therefore, take the following actions:                      .
                                                                                                                                                      .       .
..          .
                                                                       .    For three years from thk end ofyour debarment.period, you are required to certify
      .           .                                                        .that proposals or reports you submit to NSF do not contain plagiarized, falsified,
                                                                                                                                                          .    .
                                                                            or fabricated material.                                             .  .

                                                                           For three years from the end of your debarment period, you are required to submit
                                                                           assurances by a responsible official of your employer that any proposals or reports
                                                                           you submit to NSF do not contain plagiarized, falsified, or fabricated material.    .

                                                                           From the date of this letterthrough                        you are prohibited'from
                                                                           serving as an NSF reviewer, advisor, or &multant.          .


                                                                           You are required to complete an ethics training course on data integrityby July
                                                                           31,       You must certify in writing to the OIG that such training has been
                                                                           completed.

                                                          Debarment

                                                          Regulatory Basisfor Debarment                 .                                                                          .        .
                                                                                                                                              .       .
                              .    '          .           Pursuant to 2 CFR 180.800, deljarmcnt may be imposed for:

                                                                           (b)     Violation of the terms of a public agreement or transaction so serous as to
                                                                                   affect the integrity of an agency progmm, such as -

                                                                                   (1)    A willful failure to perfofm in accorda&eivith the terms of one or
                                                      .            .                      more public agreements or transactions; or
            .         .                                                            ...
                                                                                   (3)    A willful yiolation of ast&utory or iegulatory provision h .                     '   .
                                                                                          requirement applicable to a public agreement or transaction.

                                          . .                              .   .                                                                                                                .   .
                                                               .   .
:'           :                                                                                            ,..    .   .
                 .           .                                                                                                      .       .
             . ..            In        debarment action, thi govex&ent must establish theca&e:foi deb+&            by a . . .
                     .           preponderance ofthe evidence. 2 CFR 180.850. . In this.case, you intentiorially falsified -    ,       '       .
                                 and fabricated data, and included suchdatain four manuscripts submitted for publication.. .
                                 Thus; your actions support a cause for debarment under 2 CER.180.800&).        ..  .


                                                                           .   .
         .   .
                     -   ,       Length ofDebannent      : ,   '                   . .

                                 Debarment must be for a period commensuratewith the seriousness of the causes upon
                                 which an individual's debarment is based. 2 CFR 180.865. Generally, a period of
                                 debarment should not exceed three years but, where circumstanceswamat, a longer
                                 period may be imposed. 2 CFR 180.865. Having considered the seriousness of your
                                 actions, as well as the relevant aggravating and mitigating factors set forth in 2 CER
                                 180.860, we are proposing debarment for a period of three years.



                                 A b ~ e a~ioced~ires
                                          l        for Findine of ~esearch'~isconduct
                                                                                   and Procednres ~ o. i e .r n i l i ~
                                 ~ropos'edDebarment                                          .   .


                             Appeal Procedures for Finding of Research Misconduct

                             Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
                             of this finding, in writing, to the Director of the Foundation. 45 CFX 689.10(a). Any
                             appeal should be addressed to the Director at the National Science Foundation, 4201
                             Wilson Boulevard, Arlington, Virginia, 22230. If we do not receive your appeal within
                             the 30-day period, the decision on the finding of research misconduct will-becorn? final.
                             For your information, we are attaching a copy of the applicable regulations.


     .   .
                             Procedures Governing Proposed Debarment

                             The provisions of 2 CFR Sections 180.800 through 180.855 govern debarment
                             procedures and decision-making. Under our regulations, you have 30 days after receipt
                             of this notice to submit, in person or in writing, or through a representative, infomiation
                             and argument in opposition to this debarment. 2 CFR 180.860. Comments submitted
                             within the 30-day period will receive full consideration and may lead t9 a revision of the
                             recommended disposition. If NSF does not receive a response to this notice within the
                             30-day period, this debarment will become final.

                             Any response should be addressed to Lawrence Rudolph, General Counsel, National
                             Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265,
                             Arlington, Virginia 22230. For your information, we are attaching a copy of the
                             Foundation's regulations on non-procurement debarment and FAR Subpart 9.4.
                                              .   .                          .       .
                1 . .
                                                                   .         .       .           .   .                     .   .
                                                                                                                               ..        .
            . .                                                             NATIONAL SCIENCE FOUNDA~ION
                                                                                                                                                                                        .   ..
                         .           .                                                                                                                         .       .
                                                                                4201 .WILSONBOULEVARD   .        '
                                                                                                                                                  .   .   ..

                                                                               ARLINGTON,VIRGINIA 22230                :




                                          OFFICE OF THE
                                         DEPUTY DIRECTOR




                                                      ..                                 .   .
                     -               ,VIAFLRST CLASS MAlL AND ELECTRONIC MAIL,                                       . .       . .   .
                                                                                                         .   .       . .         .   .
                                                                       ..        .




                                     On              the National Science Foundation ("NSF')sent you a Notice of Proposed
                            Debarment in which NSF proposed to debar you from diractly or indhctly obtaining the benefits
                            of Federal grants for a period of three years. The Notice sets forth in detail the circumstances
                            giving rise to NSF's decision to propose your debannent. Specifically, NSF indicated in the .
                            Notice that the proposed debannent is based upon ybur fabrication and falsification of data in
                            four manuscripts containingresearch partially funded by NSF. In that Notice, NSF provided you
                            with thirtydays to respond to the proposed debannent
                                            .                                                                          . .
                                                                                                                  you-are .: . .
                                                .
                   . . ,Overthirty days have elapsed,and NSF has nCit.receiveda respoke; ~ccardiqgli,                                                                      .        .
                     . . debarred until                      .Debakint precludes you h mreceiving Federal financialand                                             '


        .         -.        non+financialassistance aid bwefits under non-procurement Fededprograms.ad gctivik
                           .unlessan.agencyhead or authorized design& makes a determination to grant an txception id : ..
                             '


                            accordance with.2CFR Seetion 180.135. N0n-~r6kurem&ttransactions include grants,
                                 '



                        .. &operative agreements,scholarships, fellowshipsl'contractsof assistance, loans, loan guarautets,                                                ..
    .           -         . subsidies, in+inc'e, payments for specified use, and donation a v t s ,                                      '

.       .                                                  .   .                                                                             ..   .
                                                                                                                                                                                .
                                       Inaddition, you & prdhibiteii from Aeiving Federal'contracts or approyed subcontracts under
                                                                                                                                                                                            .
                 .                                                                                                                                                                  '            .
            '    .                     the Federal Acquisition Regulatio~("pAR")st 48 CFR Subpart 9.4 for the period of this
                                 '
                                                                                                                                   .                                   .

    . ..
                '    .               . debannent. 2 CFR Section 180.170 Duringthe-debarmentperiod, you may not have
                     .
                                                                                                                                                                                                                                                                                         .               .. . . . .
                             ..                supervisoryresponsibility, primary manage&nt,.substantive control over, or$iitibal 'infleende.                                                                                                                                                                                                    .       :.::.. .     .           .            .       .

                                          -    6% a grant, contract, or cooperative.agreement yith any agency of the ExeCutiLe
                                                                                                                        .   .
                                                                                                                                  ~ r & c hof the
                                                                                                                                               .                                                                                                                                                                                         .
                                                                                                                                                                                                                                                                                                                                                         '       ..           .                .

                                              .
                                               Federal
                                                   .   GovemJnent    . .                                       ,           .  .. . . . .                                                                                                                                                                                                 . . ..
                                                                                                 .         .           .           .        .          . .                                                                                                                 . .~

                                              . Lastlyyplease wte'that, in the ~ o t i c of
                                                                                         o F'roposed ~ e b a r k n f N ~ l ? . a ltseo k thc . f~ll@win~
                                                                                                                                                . .               '                                                                                                                                                          '

                                                                                                                                 .     . ,:.
                 . . .                          actions against you, which continue to remain in effect:         . . . .         ..
                                                                                                                                   .
                                                                                                                                           .    . .
                                                                                                                                         . . . . . . . .. ... . .                                                                                                                                                                                          .                      .
        - .              .                              ,    .         .     .                      .   .                               ........                                                                                       .                  .                     .
                                                                                                                                                                  debarment
    .                .
                                      "
                                                                                                                                                                                                                                                                                                                                                         . . .
                                      .                .                   For three ye& from the ind of youf               pehod, y m are iequirqfto cerhfy k i t ' . . . .                                                                                                                                                                                 . . . . . .                           .

                                                                           proposals or reports you submit to NSF.donot contaid                falsified, otfabricated.
                                                  '.                       material. Such certificati?ns should be sent to NSYs Office of 1nsp.ector.
                                                                                                                                             .    .
                                                                                                                                                      G&d
                                                       .        .        . ('Y)IG"j, 4201 Wilson  Boulevard,' Arlington, .VA.22230;                                                                                                                                                                                                                                   .               .
                                                       . .              . .                                                                                                                                                                                       .
                                                                                                                                                                                                                                                                      .        ...               .           .
                                                                                                                                                                                                                                                                                                                     .                   .
                                                               .o:'             Forthre.l years fioh the.&d of your debarment period,      are required to submit                                                                                                                                                                                                                         .                .
                                                                                assurances by a ~sponsible.official of youremployer that any pioposals or reports you'                                                                                                                                                                                           . . . . . .
                                                                                                                                                                                                                                                                                                                                             .               .            .
                                                                                submit to NSF do not contain plagihed, falsified, or .fabricated
                                                                                                                                        . .
                                                                                                                                                 mateal.
                                                                                                                                                  .     .   Such'
                                                                                                                                                             .     .                                                                                                                                                 ,                                                                . .              .
                                                                                                                                                                                                                                                                                                                                                                                                       .

                                                                    .           assurances  should be sent to the OhG.    .                      .    .
                                                                                                                                                        . . . . .
                                                                                 .                                                                                                                                                                                                                                                                                                     .               .
                                                                                                                                                                                                                                             . . . . . . .                                                               .
                                                                                                                           hi&g
                                                                                                                                                                                                                                                                                                                                 .                       .                    .
.            .

    .        .
                                                   ...                          You are p&hibited                                                       as an Ns~reviewer,advi&ry.~. ~ c .o &. s through,
                                                                                                                                                                                                  ul~                                                                                                                                .           .               .            .                .               .

                                                       .   .                                                                   . . .                         . .                            ...                                                                                                                  .   .           ..
                                                                                                                                                                                                                                            ... . . . .                              ,
                                                                                                                                                                                                                                                                                             .                                                                                    .            .       .

                                              .        :r                   .  you-are required to complete an ethics training coursk oi.daeintegtity by ~ u31,                                                                                                                                                                                                      . .          :
                                                                .              Ydu must cextify in writing to the OIG that such training has been completed. . . .:                                                                                                                                                                                                  . .
                                                                                                                                                                                                                                                                                                                                                                                  .                    .
                                                               .            .:
                                                                                . ..                           .   .
                                                                                                                                                        . .         .
                                                                                                                                                                  .       .                             .            .                                                                               -.                                  .
                                                                                                                                       .    .                                                                                                             ..                                                                                 . . .
                                                  Ifpu have.'iny&xtions regarding thef6reioing, ;lease cdntact                 Assistant Gmml                                                                                                                                                                                                        .       ,   '        '




                                      .           Counsel, National Science Foundation,,Office of the General'Cokel, 4201Wde~oulevard,                                                                                                                                                                                                                                .                    .

                                      -           Roqm 1265, Arlington, Virginia,22230. . . .                                    . .
. .
         .                                                                                                                               .
                                          ,                                                                                                                       '
                                                                                                           . . .. . . . .. .. .      .
 .                                                                                                     .    .
                                                                                                                      . .              .
                                                     . .                  . .                 ....
                                                                                                                             . .
                                                                                                                                           .
                                                  ..         .                  ,       -
                                                                                                                                                                                                                                             ..       . ..
                                                                                                                                                                                    .   .                                                                                                .                   .


                                                                                                     . .                                                                          Sinchly,                                       . . .. ..                                                           .               .
                                                                                    ,       .
                                                                                                                                                            . .
                                                                                                                                                                                                                                                          :.
                                              .                     .                           . . .                                                                     '       &ID-',.'.                                                                                                      ,
                                                                                                                                                                                                                                                                                                 :                   .               ,           .



                                                                                                                                                  . .             .       : KathieL.~l.s*                                    .     .                                                 ..
                                  .                    .
                                                                                                                                                                              .
                                                                                                                                                                                   Deputy Director'.
                                                                                                                                                                                  . .
                                                                                                                                                                                                                             ' .       . -            '       -            -.                                .           .           .
                 .       .
                                                                                                                                                        .                                       .            .                   . . . .
                                                                                                                                                                      .                                                                                                         .            .
                                                                                                                                                                                                                                                                       .             .               .
                             .
.        .
                 .
                                                                                                                   .
                                                                                                                           .
                                                                                                                           .
                                                                                                                               .
                                                                                                                                                                                                    .       ..                         ..         .
                                                                                                                                                                                                                                                                                                         .           .
                                                                                                                                                                                                                     -                                    .                ,

                                                                                                                                                                                                .            .
                                                           .            .
                                                                                                                                                                                                                 .       .
                                                                                                                                                                                                                                            ..                        ..                 ..
                                                                                                                                           . ..    .                                                                                                                   .
                                          .                .                                                                                                                                .           .
